<html>
<title> - HELPING VETERANS WITH EMERGENCY MEDICAL TRAINING TRANSITION TO CIVILIAN SERVICE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
HELPING VETERANS WITH EMERGENCY MEDICAL TRAINING TRANSITION TO CIVILIAN 
                                SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2012

                               __________

                           Serial No. 112-162


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
82-106                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4b3a4bb94b7a1a7a0bcb1b8a4fab7bbb9fa">[email&#160;protected]</a>  




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               JOHN D. DINGELL, Michigan
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
PHIL GINGREY, Georgia                TAMMY BALDWIN, Wisconsin
ROBERT E. LATTA, Ohio                MIKE ROSS, Arkansas
CATHY McMORRIS RODGERS, Washington   ANTHONY D. WEINER, New York
LEONARD LANCE, New Jersey            JIM MATHESON, Utah
BILL CASSIDY, Louisiana              HENRY A. WAXMAN, California (ex 
BRETT GUTHRIE, Kentucky                  officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     4
Hon. Adam Kinzinger, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................     6
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................    37
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    42

                               Witnesses

Ben D. Chlapek, Deputy Chief, Central Jackson County Fire 
  Protection District, Blue Springs, Missouri, and Chair, 
  Military Relations Committee, National Association of Emergency 
  Medical Technicians............................................     8
    Prepared statement...........................................    10
Daniel M. Nichols, Senior Vice President, Victory Media, and 
  Chief Executive Officer, Victory Tech..........................    18
    Prepared statement...........................................    20


HELPING VETERANS WITH EMERGENCY MEDICAL TRAINING TRANSITION TO CIVILIAN 
                                SERVICE

                              ----------                              


                        WEDNESDAY, JULY 11, 2012

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:16 a.m., in 
room 2123, Rayburn House Office Building, Hon. Joseph R. Pitts 
(chairman of the subcommittee) presiding.
    Members present: Representatives Pitts, Shimkus, Murphy, 
Gingrey, Latta, Lance, Cassidy, Guthrie, Barton, Kinzinger, 
Pallone, Dingell, Capps, and Schakowsky.
    Staff present: Anita Bradley, Senior Policy, Advisor to 
Chairman Emeritus; Brenda Destro, Professional Staff Member, 
Health; Ryan Long, Chief Counsel, Health; Katie Novaria, 
Legislative Clerk; Monica Popp, Professional Staff Member, 
Health; Andrew Powaleny, Deputy Press Secretary; Heidi Stirrup, 
Health Policy Coordinator; Alli Corr, Democratic Policy 
Analyst; Ruth Katz, Democratic Chief Public Health Counsel; and 
Anne Morris Reid, Democratic Professional Staff Member.
    Mr. Pitts. The subcommittee will come to order. The Chair 
will recognize himself for 5 minutes for an opening statement.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    We are here today to discuss H.R. 4124, the Veteran 
Emergency Medical Technician Support Act of 2012, which would 
give States demonstration grants to study how to better 
integrate military medics into civilian EMT jobs.
    Emergency response is a crucial component of our health 
care system, as EMTs are often the first point of contact in a 
crisis situation, and their care can make the difference 
between life and death. Emergency response is even more crucial 
on the battlefield, where military medics respond to 
emergencies and provide care for the soldiers until a physician 
or other health professional can take over. These soldiers, 
trained as combat medics, become very experienced dealing with 
massive trauma injuries and other complex health problems.
    It seems that utilizing those with combat medic experience 
in our EMT workforce here at home would be good for the 
returning soldiers, good for the health care system, and good 
for patients. Many areas throughout the U.S. are experiencing a 
shortage of EMTs, both paid and volunteers, and military medics 
could potentially fill those workforce gaps. However, there are 
a number of issues keeping military medics from EMT employment. 
Most importantly are State licensing requirements, which can 
require duplicative training and education that is likely to be 
unnecessary for someone with significant experience. There is a 
need to better understand the differences in military medic 
training versus traditional EMT training and bridge the gap 
between the two to make it easier for our returning soldiers to 
find jobs. It is our hope that this bill would allow States to 
study this and streamline their EMT requirements for those 
returning from the military who have the experience so 
desperately needed in many communities.
    I look forward to hearing from our witnesses today, and I 
would like to thank our witnesses for being here. I look 
forward to your testimony, and I now yield to chair emeritus of 
the committee, Representative Barton.
    [The prepared statement of Mr. Pitts follows:]

    [GRAPHIC] [TIFF OMITTED] T2106.001
    
   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Chairman Pitts, and thank you and 
Mr. Pallone for holding this hearing today. Helping veterans 
with emergency medical training transition to civilian service, 
this is a discussion that is long overdue.
    As we all know, our United States military forces have tens 
of thousands of veterans who have been trained as medics and 
who can make a contribution immediately in most cases in the 
private sector if they choose to continue that vocation. Once 
their service is concluded, sometimes, though, it is very 
difficult for them to find civilian jobs due to a variety of 
different State occupational license requirements. It is a fact 
that military emergency medical technicians are highly trained 
and offer the civilian market a heightened skill set, 
particularly when it is related to a trauma situation.
    We spend billions of dollars every year in the military to 
provide this medical training. We have over 21 million men and 
women who have served in the military. Of this number, over 2 
million have served since September of 2001. We have a 
bipartisan bill that is introduced by Congressman Kinzinger, 
Congresswoman Capps, and other members that would help in this 
transition between the military and the civilian EMT market. 
The bill would incentivize States to initiate under 
demonstration programs a method to streamline the requirements 
and procedures so that the training and skill set that the 
military, the veterans already have can be immediately 
recognized. Our veterans should not have to completely redo the 
medical training that they have already received in the 
military to receive civilian certification. I support the 
bipartisan bill, and I support this hearing.
    With that, Mr. Chairman, I yield back to you or to any 
other member the remaining time that I have.
    Mr. Pitts. Mr. Kinzinger.

 OPENING STATEMENT OF HON. ADAM KINZINGER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Kinzinger. Thank you, Mr. Chairman, and Ranking Member 
Pallone, members of the Health subcommittee, and I want to 
express my appreciation to you for holding this important 
hearing on this, the Veterans Emergency Medical Technician 
Support Act of 2012.
    I also want to express my gratitude to Ms. Capps for 
working with me on this very important piece of legislation. 
Our corpsmen, medics, and soldiers receive some of the best 
emergency medicine training in the world, and they prove it 
every day on the battlefield, both in Iraq and Afghanistan. 
Unfortunately, many veteran EMTs are required to take classes 
they have already completed in the military to satisfy the 
civilian licensure system, needlessly delaying their entry into 
the civilian workforce.
    This legislation would streamline the process by providing 
grants to States so they can make the requirements easier and 
streamline it with military EMT training to become certified 
civilian EMTs. In doing so, returning veterans will not have to 
start over at square one in their training and they can enter 
the civilian workforce much sooner.
    And just to wrap up, I will say last week's job numbers 
highlighted the incredible difficulty that returning veterans 
are having in the civilian workforce, so I think this is a very 
important first step. Again, I thank the subcommittee for 
having the hearing, and I yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the ranking member, Mr. Pallone, for 5 
minutes for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    I welcome today's hearing on the Helping Veterans With 
Emergency Medical Training to Civilian Service Act.
    As we continue working to improve the health quality and 
coverage of our Nation, we have a unique opportunity and 
responsibility to address two very important issues that are 
critical to achieving that goal. First, ensuring that our 
Nation's veterans have career opportunities when they come 
home, and, second, addressing shortages in a vital sector of 
health care service and delivery. I believe this bill is good 
health policy. It was good policy when it passed the committee 
as part of the America's Affordable Health Choices Act of 2009, 
and it is good policy now.
    By assisting veterans with military medical training to 
meet the requirements for becoming civilian medical 
technicians, we help ensure that the brave men and women who 
protect our freedom have an opportunity to support themselves 
while helping attenuate the shortage of emergency medical 
services upon which Americans depend.
    Last week we celebrated our Nation's 236th anniversary, and 
we remembered the sacrifices of those who served in Iraq and 
Afghanistan and elsewhere around the world. Although we 
celebrate our independence once a year, it is important to 
always remember the remarkable sacrifice and service of our men 
and women in uniform to provide the opportunity to make the 
U.S. stronger around the world and at home, building an 
American future worthy of our veterans' sacrifice, and as part 
of keeping our promises to our veterans, the President and 
Congress have to focus on taking major steps to help our men 
and women in uniform obtain good jobs when they come home.
    As we honor their nobility and patriotism, we must also 
speak to the stark realities they face. In September, the 
unemployment rate for returning Iraq and Afghanistan veterans 
was a staggering 11.7 percent, leaving 235,000 veterans 
struggling to find jobs after the most severe economic 
recession since the depression, and younger returning veterans 
ages 18 to 24 are facing an even more difficult challenge, with 
more than one in five out of work and looking for a job last 
year. So we have an obligation to make sure our veterans have 
the necessary tools to navigate this difficult labor market.
    At the same time, emergency medical services are a vital 
part of the American health care system, and they are critical 
to both emergency and nonemergency situations. However, studies 
over the past decade have shown that poor recruitment and 
retention of qualified professionals may have a detrimental 
effect on the health of our communities--this is especially 
true in rural areas where access to health care is often 
limited or unavailable--and that there is a high turnover and 
shortages of qualified emergency medical technicians or EMTs 
and paramedics and emergency medical service, both during 
normal conditions and following disasters or similar events.
    In these fiscally strained times, we must find ways to 
adequately address the needs of our communities and our 
veterans. We must be efficient, creative, and innovative in our 
approaches, and this bill gives us a way to help with their 
transition to civilian life. The bill allows the streamlining 
of training and certification so that our veterans who have 
received military emergency medical training can apply their 
skills and talents to communities at home where they are needed 
and where they can become an integral part of their community 
and economy.
    On the battlefield, the military pledges to leave no 
soldier behind, and, Mr. Chairman, as a Nation, let it be our 
pledge that when they return home, we leave no veteran behind.
    I yield back.
    Mr. Pitts. Do you want to yield to Ms. Capps?
    Mr. Pallone. I think she is going to use Mr. Waxman's time.
    Is that OK?
    Mr. Pitts. Yes, that is fine. We recognize Ms. Capps for 5 
minutes for an opening statement.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Mr. Chairman, and thank you and 
Ranking Member Pallone for holding this important hearing 
today. I am really excited by the prospect.
    The individuals who serve our Nation in uniform do so with 
distinction. Our military men and women are trained to perform 
at the highest level in a host of jobs. However, there is so 
much more to be done to help these men and women and their 
families when they return home to translate those skills and 
experience into civilian service. The service we need, by the 
way. And that disconnect is why we are here today.
    Our men and women receive some of the best technical 
training in emergency medicine, and they prove their skills on 
the battlefield every day. However, when they return home, 
experienced military medics are often required to begin at 
entry level curricula, as though they were just graduating from 
high school, to receive certification for civilian jobs. 
Similarly, military medics with civilian credentials often must 
let their civilian certifications lapse--this is another 
problem--while they are defending our country. Either way, this 
keeps our veterans out of the civilian workforce, and it also 
withholds valuable medical personnel from our communities.
    As a nurse, I know the importance of having qualified and 
capable first responders available in our community, and as our 
Nation climbs out of this recession, it is so important to 
realize that the health care sector has continued to grow with 
good-paying jobs often left unfilled and waiting for qualified 
providers. That is why we must do all we can to break down the 
artificial barriers, and they are very artificial, both in 
licensure and resources, that obstruct our military medics from 
civilian opportunities.
    I am so pleased to be working with my colleagues from both 
sides of the aisle to make that happen. I am proud to have 
introduced H.R. 3884, the Emergency Medic Transition Act, with 
Congressman Todd Young from Indiana to help support our 
military medics reach civilian licensure and help the colleges 
and technical schools develop appropriate fast track military-
to-community programs. Similar legislation, as my colleague has 
said, passed the House in a near unanimous vote in the 111th 
Congress.
    And I am also pleased to have joined Congressman Adam 
Kinzinger to introduce H.R. 4124, the Veteran Emergency Medical 
Technician Support Act. Again, this is a straightforward 
bipartisan bill which will help States streamline their 
certification processes to take military medic training into 
account for civilian licensure.
    Finally, I wanted to take a second to recognize a former 
member, Congresswoman Jane Harman, who spearheaded this issue 
in the last Congress. So now I am hopeful we continue to work 
together in a bipartisan way and move this important 
legislation out of the committee so that we can begin to 
actually help these talented professionals join our health care 
workforce, improve the health care options in our communities, 
actually make our communities and Nation a safer place.
    And I yield back.
    Mr. Pitts. The Chair thanks the gentlelady.
    I would like now to introduce today's witnesses.
    Mr. Ben Chlapek is the deputy chief of Central Jackson 
County Fire Protection District in Blue Springs, Missouri, and 
he represents the National Association of Emergency Medical 
Technicians.
    Mr. Chlapek, I understand you recently retired from the 
U.S. Army after 36 years of service. I think I can speak for 
all members in thanking you for your many years of service and 
offering our congratulations. We are glad to have you with us 
today.
    And Mr. Daniel Nichols is senior vice president of Victory 
Media, Inc., a disabled veteran-owned business, and CEO of 
Victory Tech, a vocational and workforce training institute. 
Mr. Nichols is also a Navy Reserve officer and a veteran of 
Operation Iraqi Freedom.
    Thank you for your service, Mr. Nichols. And we are happy 
to have you here with us today as well.

  STATEMENTS OF BEN D. CHLAPEK, DEPUTY CHIEF, CENTRAL JACKSON 
 COUNTY FIRE PROTECTION DISTRICT, BLUE SPRINGS, MISSOURI, AND 
 CHAIR, MILITARY RELATIONS COMMITTEE, NATIONAL ASSOCIATION OF 
 EMERGENCY MEDICAL TECHNICIANS; AND DANIEL M. NICHOLS, SENIOR 
  VICE PRESIDENT, VICTORY MEDIA, AND CHIEF EXECUTIVE OFFICER, 
                          VICTORY TECH

    Mr. Pitts. At this time, Mr. Chlapek, your written 
testimony will be entered into the record. You are recognized 
for 5 minutes to summarize.

                  STATEMENT OF BEN D. CHLAPEK

    Mr. Chlapek. Thank you, Chairman Pitts, Ranking Member 
Pallone, and members of the committee. We appreciate this 
opportunity to discuss this issue with you to assess veterans 
who are getting out of the military and trying to transition 
into the civilian EMS world.
    Today I represent the National Association of Emergency 
Medical Technicians, formed in 1975. The association represents 
over 32,000 EMS professionals, first responders, fire 
department EMTs and medics, private, industrial, and other 
forms of even some of the military EMTs and paramedics.
    A smooth transition of our veterans into civilian life 
underscores the importance of the hearings and the 
responsibilities today in developing policies that honor the 
training of our military medics and seamlessly transitioning 
our veterans into the workforce and providing valuable military 
medical personnel to our communities.
    As has been previously stated, our military members and 
specifically medics receive some of the best training in the 
world and are some of the best there are at trauma care and 
other facets of medical care. Currently when military medics 
leave the service, many are required, most are required to redo 
their medical training, to either renew their license or obtain 
a license to practice in a civilian EMS capacity.
    A Navy independent duty corpsman, a Navy SEAL medic, an 
Army special forces medic, or 18 Delta, and Air Force 
pararescue medics receive advanced medical training. Most of 
these medics can put external fixation devices on mangled limbs 
to restore an anatomical structure so innervation and 
circulation is reestablished to save a limb. They can put in 
chest tubes. They routinely perform surgical procedures, and 
they can even tie--some are even trained in vascular surgery, 
so we can tie vessels back together and restore circulation in 
the field in austere environments when we have to maintain a 
patient for more than 72 hours. These are procedures that are 
normally reserved for emergency rooms, operating rooms, and 
trauma suites.
    Unfortunately, these folks are having to complete an entire 
paramedic program over the course of a year-plus to obtain a 
civilian paramedic license. These folks should be able to take 
a week, at the most, refresher training, maybe brush up on some 
geriatric training, and then be able to challenge the practical 
and written test, whether it is State or nationally.
    Basic medics in the services leave the service and could 
easily challenge the EMT test, the basic emergency medical 
technician test, both practical and written. The Army and the 
Air Force medics in their advanced individual training courses 
obtain those licenses, but many aren't renewed or they are 
still required if they don't have a current license to go back 
through a course, depending on how long they have been expired.
    Some States have made adjustments. Texas, Arkansas, 
Missouri, Alabama, and Tennessee are just a few who have State 
EMS agencies that are willing to take these on an individual 
basis or allow medics with a little bit of refresher to 
challenge a test and become licensed.
    However, right now, for example, Kansas City, Missouri, 
fire has 26 paramedic options, and they don't have people 
applying for the jobs because there is a shortage. Olathe fire 
in Kansas, a southern suburb of Kansas City, has six openings 
and as most of the suburban departments require an EMT or 
paramedic license to come to work, and streamlining this would 
really help our veterans.
    National Registry of Emergency Medical Technicians offers 
90 days of leeway upon return to work with this, and Bill 
Brown, a retired pararescue jumper, was a former executive 
director and really helped us with that.
    This subcommittee has the potential to help veterans return 
to work upon their completion of military duty and reduce 
unemployment among veterans. NAMT wholly supports any process 
and legislation that helps military medics transition into the 
civilian world and use their skills and expertise to make our 
communities safer and better. Thank you.
    [The prepared statement of Mr. Chlapek follows:]

    [GRAPHIC] [TIFF OMITTED] T2106.002
    
    [GRAPHIC] [TIFF OMITTED] T2106.003
    
    [GRAPHIC] [TIFF OMITTED] T2106.004
    
    [GRAPHIC] [TIFF OMITTED] T2106.005
    
    [GRAPHIC] [TIFF OMITTED] T2106.006
    
    [GRAPHIC] [TIFF OMITTED] T2106.007
    
    [GRAPHIC] [TIFF OMITTED] T2106.008
    
    [GRAPHIC] [TIFF OMITTED] T2106.009
    
    Mr. Pitts. The Chair thanks the gentleman.
    Mr. Nichols, you are recognized for 5 minutes for an 
opening statement.

                 STATEMENT OF DANIEL M. NICHOLS

    Mr. Nichols. Chairman Pitts, Congressman Pallone, members 
of the committee, I appreciate the opportunity to testify 
before you today. I am Daniel Nichols, and I offer my testimony 
to you as an OIF veteran, a member of the Navy Reserve, and one 
of the growing number of veteran entrepreneurs who has 
dedicated their time and creative efforts to creating jobs and 
successful business enterprises that are capable of returning 
value and resource back to my military family and to our local 
community.
    For far too long we have known precisely what the 
challenges are in military transition, and as a Nation, we have 
been unable to adequately address the perceived gap between 
military training outcomes and civilian workplace skills, and 
that includes the health care sector. Our military members have 
skills, and they have no problem being put to the test to prove 
their competence.
    As recruitment director for a prominent health system, I 
led the development and implementation of a new competency-
based selection process for emergency medical technicians and 
clinical technicians across our hospital system where we are 
facing significant turnover and shortage. At the time, my team 
of recruiters handled about 85,000 resums for these positions. 
The vast majority of the applicants were unqualified. The 
workload for them was grueling; the conditions, which persist 
due to high unemployment, resulted in costly turnover. Military 
resumes were typically flushed straight out of the process by 
our electronic applicant tracking system.
    Our methodology was straightforward. We performed a 
comprehensive competency review of the position requirements, 
we developed assessments and tests for the most relevant and 
predictive foundational competencies. We determined appropriate 
passing levels and provided the assessments to each applicant 
to determine their eligibility for the positions. Military 
talent rose to the top time and again. Yet the problems for 
veteran talent continued. We found that we either could not 
hire them because they lacked the State required credentials, 
or we had to first employ them in lesser positions because the 
credentials they did have were well below the position for 
which they were found sufficiently qualified.
    Success on the job is about competency or sufficiency of 
qualification. The hire, however, is a business transaction 
that is highly regulated and controlled. The hire is an 
artificial process that discriminates inherently against our 
military service members. I believe the ultimate solution would 
be to create a means by which training provided by the 
Department of Defense could be accredited by civilian standards 
and therefore allow military training and skills to easily 
transition into existing safeguards and competency standards 
established by civilian and State institutions.
    H.R. 4124 on the surface appears to be small change. These 
changes, however, would positively affect the livelihood of our 
veterans and improve health care delivery. H.R. 4124 provides 
for two specific possibilities that have not yet been 
considered by other legislation. First, it allows for military 
training to be mapped to equivalencies and credentials above 
the basic entry level qualifications. The emergency medical 
technician credentialing letter has basic, intermediate, and 
advanced specialty certifications. To date, military training 
has only been mapped to the EMT basic, which falls well below 
the pay rate and functional capability of service members who 
have honed their skills on the front lines.
    The second, H.R. 4124, calls for the development of methods 
to establish equivalency. Solutions to date have forced skilled 
medics into lengthy and costly training programs, a redundancy 
that is ineffective, inefficient, and detrimental to the 
economic success of our military members. Using GI bill 
benefits to sit in classes that they could teach is not a good 
use of their hard-earned benefits. According to UCX data that 
was released from the Army in fiscal year 2011, there were 
190,000 DD-214s; 100,000 of those applied for unemployment 
insurance, and nearly 3,000 of those that were applying were 
Army medics. They were the third largest military occupational 
specialty to do so. There is a problem, and we have not yet 
solved it.
    We founded Victory Tech for the express purpose of creating 
an alternative for our military families, a means of achieving 
the required academic validation of competency to qualify for 
the appropriate level of credential without unnecessary use of 
time, benefits or personal income.
    I wish to commend this legislation to the committee, and I 
and my colleagues stand ready to assist in any way possible. 
Thank you for the opportunity to provide this testimony to you, 
and I would like to submit the remainder of the testimony for 
the record.
    [The prepared statement of Mr. Nichols follows:]

    [GRAPHIC] [TIFF OMITTED] T2106.010
    
    [GRAPHIC] [TIFF OMITTED] T2106.011
    
    [GRAPHIC] [TIFF OMITTED] T2106.012
    
    [GRAPHIC] [TIFF OMITTED] T2106.013
    
    [GRAPHIC] [TIFF OMITTED] T2106.014
    
    Mr. Pitts. The Chair thanks the gentleman.
    And now we will begin questioning, and I will recognize 
myself 5 minutes for that purpose.
    We will start with you, Mr. Nichols.
    Do some States have certification and some have licensure? 
It sounds like there is significant variation between State 
requirements that would help EMTs if the States had more 
reciprocity or at least consistent requirements. Are there any 
good reasons that States would differ with regard to their 
training requirements? Walk us through, if you will, the 
traditional State credentialing and licensing process.
    Mr. Nichols. There are a number of, from State to State, 
there are reciprocity allowances, largely because the emergency 
medical technician is not covered under the medical or the same 
branch of State legislature, you run into issues there. Some it 
is under the Department of Transportation, other areas it is 
medical. It may be just a State board all by itself. So you do 
have issues on the reciprocity side of things.
    The key challenge, though, is that there is no reciprocity 
granted between the military training and between the State, so 
while an individual may have training and then go through a 
shorter reciprocity period to, say, move from California into 
Pennsylvania, the military is not afforded that because their 
training is not accredited basically. So the key challenge that 
you do find from that reciprocity side is, yes, there are 
differences; there are different areas of State government. It 
is a State license typically, which means that it is personal 
property, so it is controlled on the State level, and that is 
why I think your legislation is a good approach because it has 
to be a State solution to figure those things out.
    I think national certifying agencies have made the greatest 
effort in our stand there in place to try to create the 
reciprocity and an equalization of credentials and 
requirements. That is extremely important, but not all States 
actually recognize or embrace that or they add on to what has 
been established by the national agencies, like my colleague 
represents today.
    Mr. Pitts. Mr. Chlapek, you mentioned the gaps that 
military medics have in their knowledge, such as geriatrics. 
Would there be a way to implement a shortened curriculum to 
train former medics on anything they may have missed in their 
military training without duplicating the entire EMT training? 
Who do you recommend create and implement this supplemental 
curriculum, and are there enough returning medics that the 
schools could run profitable supplemental programs?
    Mr. Chlapek. Absolutely, Chairman Pitts.
    There is a process with each training entity where 
refresher courses are taught one weekend--they can be taught in 
one weekend for basic emergency medical technicians and over 
two weekends for the advanced level paramedics. This is 
something that is commonly done to help people recertify or re-
license, recertify with the National Registry of Emergency 
Medical Technicians or re-license with the State. You are right 
in that some States have certifications, and some have 
licensure. There are some discrepancies there. Most, with the 
exception of one or two, offer reciprocity, as Mr. Nichols 
said, but there is no reason that those gaps could not be 
covered over a week at the most to get these people ready, the 
military medics, to challenge the written and practical test 
that the State or national registry offer.
    Mr. Pitts. All right. If you would like to continue or both 
of you, if you were making recommendations to the States to 
streamline the process for veterans to become EMTs, what would 
you focus on?
    Mr. Nichols. I will be glad to field that.
    Mr. Pitts. Mr. Nichols?
    Mr. Nichols. Yes, sir. In fact, I had written some 
legislation that was passed in several States last year. There 
are three different approaches you can take, which one is 
direct reciprocity, I believe the State of North Carolina 
looked at that as an issue where they are doing what this bill 
is suggesting; they are allowing for direct reciprocity. Others 
have backed off from that direct approach and taken the 
approach of streamlining the education process, allowing for 
some shorter times.
    From my standpoint, you do want to protect the public for 
certain to make sure the individuals have the right skill sets 
and they meet the standards that are set, so I think some kind 
of a testing mechanism to just validate the skills would 
probably be the best approach on the State level.
    Mr. Pitts. Now, someone with training as a military medic, 
would they be qualified as an EMT basic, an EMT intermediate or 
an EMT paramedic?
    Mr. Chlapek. The common combat medical training for medics 
that staff the majority of the Army and Air Force as well as 
the Navy corpsman is a basic EMT level training. Currently the 
schools with the Air Force and the Army graduate their medics, 
specifically in the Army the 68-whiskey program, with the 
qualifications to test, and they test and get a national 
registry card as a basic EMT.
    Now, the Special Forces or Special Operations medical 
personnel throughout all the services through U.S. SOCOM and 
then through Fort Sam Houston and Fort Bragg qualify at the 
paramedic level, obviously, but they don't have the license 
most of the time. It has become a political and who-is-in-
charge issue as to whether or not they get licenses or not.
    Mr. Pitts. Mr. Nichols.
    Mr. Nichols. Navy corpsmen are often recruited with an 
existing EMT-B, and some of the Army service members that come 
in already have that EMT-B. The Corps and the Army and the Air 
Force as well, they are having a joint school that is now 
established down in San Antonio; there are significant 
differences in those training. When a corpsman completes their 
training, they are very much closer to an RN or to at least a 
licensed practical nurse in terms of what is allowed. The EMT 
basic is the very, very basic level they complete with. The 
minute they step on and start really practicing this hands on, 
they receive that.
    Mr. Pitts. The Chair thanks the gentlemen, and now 
recognize the ranking member, Mr. Pallone, for 5 minutes for 
questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to start with Chief Chlapek. I want to thank you 
for your service and your testimony, and you have explained to 
us the challenges that many veterans face when entering the EMS 
workforce; classes, clinical work, waiting for a test date once 
they have completed all the course work, and all these issues 
can delay the licensure of qualified veterans sometimes for 
many months.
    So I had two questions. First, if you could address the 
costs associated with achieving the training and education 
required, and what are the costs? And then what about the 
opportunity costs for veterans by investing in that training? 
That may be redundant. In other words, you know, they can't get 
another job. They are out of work. While doing that training, 
they could be doing something else. So I wanted you to address 
those two things, you know, actual costs and then, you know, 
what it might mean for the individual because, you know, they 
are doing this redundant training when they could be doing 
something else, and they are not making any money.
    Mr. Chlapek. Yes, sir.
    Mr. Pallone, it varies across the board as far as EMT 
training and paramedic training. An EMT course may be anywhere 
from $500 at a local small fire department to $1,500 at a 
larger department to the cost of a semester of schooling at a 
community college to obtain that as well as the $150 or 
whatever is paid to test depending on the testing entity. So 
that is the real cost. The paramedic school can routinely run 
$5,000 or a year's worth of community college tuition, plus 
testing costs that are similar to the EMT.
    In reality, if a service member has to spend a year in 
college going 2 or 3 days a week throughout the day or 
evenings, they are limited to part-time work to meet the 
schedule of that. So it essentially costs a year's worth of 
salary minus whatever they might make on a part-time job.
    Mr. Pallone. All right. I wanted to ask Mr. Nichols again--
it is Commander Nichols, correct?
    Mr. Nichols. Yes, sir.
    Mr. Pallone. Again, thanks for your remarks and your 
service, and I couldn't agree with you more that members of the 
military have skills and competencies that would provide 
critical services in the communities.
    However--and the latest reports from the Institute of 
Medicine and RTI International suggest that EMT shortages are 
due at least in part to high turnover rates and other retention 
difficulties.
    But I think that you already addressed the streamlining of 
the licensure and the credentialing renewal process. So I 
wanted to ask in these IOM and RTI reports, they identified 
additional retention issues that contribute to EMT shortages, 
such as career advancement. Could you comment on other ways in 
which this bill may help address retention issues? You know, 
you answered--in response to the chairman, I think you talked 
about the whole issue of streamlining the licensure and how you 
would do that, but talk a little bit about the retention issues 
and to what extent, you know, we need to address career 
advancement and how this bill would get into that.
    Mr. Nichols. Many of the individuals that we would hire 
into these positions, the EMT basic was not sufficient as a 
qualification, but for those positions that were very, very 
entry level who did hire EMT basic, the pay rate is anywhere 
from $10 to $15 an hour, so a service member coming out, that 
is well below typically what they have expected and what they 
have received in the military, and that becomes a key challenge 
for them, is sustaining their lifestyle on that.
    EMT intermediate level, which many of them could likely 
qualify for or the paramedic level, which is a much higher 
level certification, pay at much higher rates, closer to the 
$20 to $25, sometimes above that, and these are DC-area 
numbers, so they may differ across the States. That one piece 
alone is a significant issue. It is what work you are allowed 
to do.
    My colleague talked about what some of the higher level 
skilled individuals were able to do from tracheotomies in the 
field to a lot of fairly highly technical things that only 
physicians or practical nurses may be here able to do. So 
coming out and transitioning to the EMT basic, they are doing 
very, very little work, and a lot of that is more to do with 
cleaning and repair and maintenance of equipment as opposed to 
really the hands-on stuff that they have been skilled at doing. 
So it is a big step down. It oftentimes is a blow to their 
psyche, their sense of personal pride.
    Mr. Pallone. But how can we correct that? Does the bill 
help in that respect?
    Mr. Nichols. I believe it does in that if it is handled 
properly on the State level, it allows for an individual not to 
find equivalency at the basic level but to find equivalency 
upward in that ladder, equivalency to their skill experience. 
And that is a huge piece that I haven't seen in other 
legislation before. It allows for that. I don't know if it is 
quite as specifically directed toward that, but it certainly 
allows for States to be able to do that.
    Mr. Pallone. All right. Thank you very much.
    Mr. Pitts. The Chair thanks the gentleman.
    I recognize the gentleman from Pennsylvania, Dr. Murphy, 
for 5 minutes for questions.
    Mr. Murphy. Thank you, Mr. Chairman.
    I want to also state, too, that I have the distinct 
pleasure and honor of serving in the Navy Reserve with many of 
these corpsmen, and they are pretty remarkable what they have 
gone through in training. I would like to ask our witnesses 
here to comment, too, that when it comes to doing EMT work, in 
addition to the training, there is also what one does on the 
job. Can you give me a little rundown of the typical kind of 
crisis or situation a paramedic or EMT might be facing in a 
day's work?
    Mr. Chlapek. Yes, sir. Congressman, Doctor, it can be--a 
day's work can be anything from multiple post changes without 
running a call on a patient to call after call after call, 
responding from one call, clearing the hospital quickly to run 
another one, and it may be anything from whether a large system 
or a small system, anything from holding the hand of a 96-year-
old patient and making them as comfortable as you can on the 
way to the emergency room, back to their residential care 
facility or anything like that, to treating gunshot victims or 
explosion victims and being in hazardous environments while we 
do that. The day varies greatly, and that EMT and paramedic 
have to work as a team, regardless of how many are there and 
within their scope of practice.
    Mr. Murphy. Given that, I imagine a lot of people go 
through the training, the book training, the course training, 
the lector training, and yet when they actually get on site and 
they are dealing with someone who is a gunshot victim or who is 
in a horrendous auto accident or pulling someone with third 
degree burns out of a fire, I imagine that the horrors of the 
situation itself also weed some people out, some people say 
this I can't do. Am I correct in that?
    Mr. Chlapek. That is correct, sir.
    Mr. Murphy. That is not something you can necessarily test 
for or question for when someone is applying for the job.
    Mr. Chlapek. That is correct. We do background checks. In 
my educational facility, we do further testing to try to weed 
some of those folks out, but they are few and far between. In 
reality, once you go through the training and the clinical 
work, you know whether or not you will make it on the street, 
and once you get out on the street or whatever environment you 
are working in, you do what you are trained to do, and you let 
the emotional part come later, and running a SIDS baby is a 
prime example. You do what you are trained to do and try to 
resuscitate the baby if they are viable at all, but afterwards, 
you get to the emergency room and transfer care or back to your 
station, once like a pediatrician told me, and we go home at 
night and cry like anybody else or call our spouses and say, 
give the kids an extra hug. So you can weed those people out, 
and of course, with PTSD, it adds up over time, just like it 
does with soldiers and sailors.
    Mr. Murphy. You may guess where I am going with this, and 
that is this is part of the training that you just can't deal 
with in a classroom. You can't talk to someone about this, and 
this is an incredible skill that many of those who have gone 
through corpsman training experiences in Afghanistan and Iraq 
bring to the situation where they can probably be a source of 
strength and teaching to their colleagues. How do we make sure 
that we account for this, I ask both of you this, in terms of 
it is not just a matter of giving them credit for what they 
have already learned, but those things that happen in the 
classroom and the battlefield in putting someone back together, 
dealing with some of the atrocities of war, some of the things 
that we know that the al Qaeda and Taliban do to children in 
torturing them and damaging them. I am thinking here of a book 
called ``Outlaw Platoon'' by Sean Parnell, a best seller where 
he spent some 400 days in Afghanistan and particularly outlines 
the story of a corpsman there who probably ought to be 
nominated for the congressional medal of honor who was running 
from wounded soldier to soldier in his platoon, they were shot 
up, while he was getting shot himself, with incredible courage 
under fire. And I want to make sure that such people are 
getting credit, an opportunity to have jobs.
    It almost seems silly to me that we have to have an act of 
Congress to say to do this. So perhaps if each of you could 
comment on why we need to move forward on a bill like this 
quickly. Go ahead.
    Mr. Nichols. Thank you, Congressman, thank you for 
representing our district at home very well in the Pittsburgh 
area. I had the privilege as well to serve. As a Navy chaplain, 
we serve right alongside the medical corpsmen and did so 
throughout Iraq, and to watch them work as a team to see 
leadership develop and leadership expressed, that is absolutely 
something you cannot train. The challenge they find in coming 
home is too many barriers, too many people saying no, too many 
regulations and long processes of filling out paperwork and 
following this step and that step and talking to the right 
person. We learned that as Navy personnel, how to kind of work 
through the system that is fairly difficult, but it is a 
challenge for them when you try to start feeding your family 
and to do that at the same time.
    The other challenge they bump into is the issue of 
liability. So there are a lot of strictures that our civilian 
hospitals who really make sure you don't step over and do more, 
and that becomes, you know, that additional challenge. I think 
to take that leadership piece that has been honed, you can't 
grow it, but we could sure use that on the front lines of our 
communities.
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes the gentlelady from California, Mrs. Capps, for 5 
minutes for questions.
    Mrs. Capps. Thank you, Mr. Chairman.
    Thank you, each of you, for your excellent testimony today 
from your perspectives. Both your testimonies express very 
clearly that there are a host of contributing barriers to a 
smooth transition from military to civilian service. I agree 
with you that H.R. 4124 is an important step toward breaking 
down some of these barriers, but there are other roadblocks 
noted in your testimony that would also have to be addressed, 
and I would like to get to maybe a few of those in my time with 
you.
    Mr. Chlapek or Chief Chlapek, excuse me, I want to use your 
title, can you speak a bit more about the potential issues 
around medics finding and facilities developing refresher or 
booster EMT courses to satisfy any gaps in military training? 
Geriatrics, someone mentioned that, I think that can be sort of 
filled in quite quickly. But I will start with that question to 
you.
    Mr. Chlapek. Thank you, Congresswoman Capps. It can be done 
at the training entities, and it has been done in some States 
at the training entities as far as what does this person need. 
You know what, they can spend a weekend with us, and our 
training entity specifically has done that and they will spend 
a weekend with us, and then we get them signed up for a test to 
challenge the test. That is where the refinement lies.
    The National Highway Traffic Safety Agency has gone so far 
as to help rewrite and reclassify some of the curriculum so 
that it is more malleable to put people through the streamlined 
process, it makes it a little easier to do. Agencies like ours, 
NAMT, puts in their employer guides how to help make this 
happen, and we embrace veterans. Veterans get credit at our 
institution or my place of employment as well as many others, 
and we bring them, we give preferential treatment to hiring 
veterans because we know they have seen what Congressman Murphy 
addressed. We know what their leadership skills are, as 
Commander Nichols talked about, but it all goes to the training 
entities and the States allowing them to do that, and that is 
what we do. You can absolutely get somebody prepared in a 
weekend or a week to challenge the test.
    Mrs. Capps. So there is some good models out there for how 
to do this in States, and your agency, your group is prepared 
to give advice and sort of support this transition should 
States wish to go down this path?
    Mr. Chlapek. Yes, ma'am, and we do that now. We have 
developed a guide for deploying soldiers who have licenses who 
are members of NAMT, and we have also developed a guide for the 
employers to help these folks, keep them licensed if they have 
a license and if not help them get licensed when they get back.
    Mrs. Capps. All right. Thank you.
    Mr. Chlapek. Yes, there are some States, those I mentioned 
Texas, Missouri, Alabama, several of those, Tennessee.
    Mrs. Capps. Right. That is good to know. Thank you very 
much.
    Commander Nichols, your testimony noted the sheer costs of 
taking the certification. That is a barrier for some of our 
returning vets, isn't it, returning soldiers?
    Mr. Nichols. Absolutely. And, again, typically when an 
individual chooses where they are going to take that 
certification or whatever else remaining skill level that they 
need, they will take the quickest path there, but oftentimes, 
they also want some of the more expensive options that may have 
a better name or better brand associated with it, and I think 
where we hope that this bill would help to address is that they 
don't use their benefits to retrain on skills they already 
have.
    Mrs. Capps. Exactly.
    Mr. Nichols. Use the benefits to take the next step and the 
next level in their career. That is why I believe it was 
created after World War II to begin with.
    Mrs. Capps. Right. These are important considerations, and 
they kind of go beyond the scope of H.R. 4124's focus on State 
certification changes. There are issues that I address in 
another bill, EMT bill, H.R. 3884. Mr. Chairman, I am hoping 
this committee will also look at this companion piece of 
legislation in some future hearings or markups on this matter. 
There is a lot here that can carry us a great deal. There is 
also some more that we could do to ensure that we are doing all 
we can to remove every barrier that we can to make this 
successful transition for our medics. It is such an important 
topic.
    There is another one, I just have 2 seconds, I will put it 
out on the table in case there is another way to explore the 
barriers that exist for current EMTs, civilian EMTs who want to 
join the National Guard, that is sort of the flip side of this, 
but it is also of very big importance to both of you and I 
think to our Congress as we are talking about getting out of 
this recession. Thank you, and I will yield back.
    Mr. Pitts. The Chair thanks the gentlelady and recognizes 
the gentleman from Ohio, Mr. Latta, for 5 minutes for 
questions.
    Mr. Latta. Thank you, Mr. Chairman, and Colonel and 
Commander, thank you very much for being with us today. I 
really appreciated your testimony.
    Colonel, if I could just kind of back up to what you said a 
little bit earlier and the questions going to some of the 
difficulties that were at the State level, you said it becomes 
kind of a political issue. Do you want to explain what you 
meant by becoming a political issue?
    Mr. Chlapek. Yes, sir. It deals with who is in charge of 
the bureau, if the bureau still exists. Some bureaus of EMS in 
certain States have been eliminated for budgetary reasons, and 
they fall under some other area of health or public safety. As 
far as the politics of it, it depends on who is in charge of 
the licensing agency at the time and, for example, in Missouri 
we have a veteran in charge, the director of the bureau of EMS, 
and he takes veterans issues on a one-by-one basis and helps 
these veterans get licensed in the most efficient and quickest 
way possible, but still making sure they have the 
qualifications. When he retires in January, we don't know who 
will go in there, but it is possible someone without his 
knowledge or passion for veterans employment, and that gets to 
be an issue, much like in the military schools. Depending on 
who is in charge of that specific school, they may or may not 
like the national registry, certification or they may or may 
not like the Texas certification, in the case of Fort Sam 
Houston, and licensing process. If they don't like it, then 
these medics start and EMTs start coming out of school without 
licenses, and if they do like it, then they are given the 
opportunity to test and all the training they need to test.
    Mr. Latta. Let me follow up if I could. You said the 
gentleman that you said that is going to be retiring does it on 
a one-on-one basis, but wouldn't it be easier if he would look 
at everybody and say that all these people that graduated or 
came out of the Army medic or the National Guard--pardon me, 
not National Guard, but the Air Force or if they are Navy 
corpsmen, that he could already categorize them so he could 
already say they are qualified to save that time?
    Mr. Chlapek. Absolutely, Congressman Latta, and last 
session, I believe Representative McCaffrey introduced a bill 
that should come up this time for passage this next session 
doing exactly what you said.
    Mr. Latta. You know, and also just sitting here thinking 
about this, especially since every Governor in this country is 
the head of the National Guard units, you would think they 
would be able to say, you know what, we have got these people 
that are trained, and they know it because they are in such 
close contact with the adjutant generals in each of the States 
that they ought to be able to get something worked together 
that they could say at the State level, you know, that they 
would have, they would know right off the bat that, yes, these 
people are qualified to do X or X plus 1 or X plus 2, but we 
can get them categorized, they don't need that extra training. 
So it seems to me that the Governors could be doing more just 
as the head of the National Guards in their respective States.
    Mr. Chlapek. Absolutely, sir. It works the other way, too. 
At Camp Atterbury, Indiana, I had a medic who had been a Navy 
independent duty corpsman and done two tours in Iraq as an 
independent duty corpsman, and the Army, even though he was 
designated as 68-whiskey by the Army Guard of his State, the 
Army folks at Fort Sam would not recognize that, and he had to 
go all the way through a basic EMT class while we were at MOB 
station before he could join up with us 2 weeks into the 
deployment. So it works both ways. We need to get the military 
and the civilian sector on the same sheet of music.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and I 
yield back my time.
    Mr. Pitts. The Chair thanks the gentleman.
    Recognize the gentlelady from Illinois, Ms. Schakowsky, for 
5 minutes for questions.
    Ms. Schakowsky. Thank you, Mr. Chairman, and thank you, 
gentlemen. For a number of years now in Illinois I have been 
working with an organization mostly sponsored by the Teamsters, 
Helmets to Hardhats, and I think there is another organization 
or focus, Heroes to Healthcare, where we are trying to work on 
these kinds of smooth transitions. It makes so much sense. We 
are spending sometimes $100,000 training individuals in the 
military, and then they come home, and this skill, these skills 
are not recognized.
    In Illinois, we have made some progress on members of the 
military who have been driving trucks getting commercial 
driver's licenses, so that is one area. But clearly, in this 
area of EMTs, when we have the most extreme conditions on the 
battlefield that would perfectly meld, and thank you for the 
progress that you have made.
    We have talked a lot about the States and the licensing 
processes and the barriers there, but I want to focus a little 
bit more on the military side and how that transition, how the 
military itself can be more helpful. Are certificates given? 
Are hours of training, some kind of piece of paper that a 
veteran can take when discharged from the military that says, I 
have had this kind of training, this number of hours--not 
necessarily that I am qualified in Texas or in Illinois for 
this job--but this is what I have learned, how many hours I 
have experienced? You talked about in your testimony dealing, 
talking with veterans on a case-by-case basis, this is 
Missouri. I mean, isn't there some way of routinizing that in a 
better way so that the person doesn't have to explain 
individual by individual but have a piece of paper?
    Commander, either one of you who really knows how to answer 
that or both, I would appreciate it.
    Mr. Nichols. I would love to jump in there, Congresswoman, 
and I am very familiar with the work the Teamsters are doing 
with Helmets to Hardhats and Heroes to Healthcare. They are 
doing excellent, outstanding work, have for many, many years 
now.
    The key challenge that you find is in order for that 
training to qualify against the credential or the license, it 
must be provided by a licensed or accredited school. The 
military is neither licensed nor accredited, and that is what I 
have really boiled it down to is the key issue.
    The Department of Education and these accreditation 
councils do not recognize the Department of Defense as an 
accredited training institution. Therefore, all the training 
that comes from them cannot be, unless some specific 
legislation says so, accepted.
    Ms. Schakowsky. Well, isn't that sort of the bottleneck, 
then? Isn't that something that we ought to directly deal with 
is acknowledging the military as a place that is qualified and 
certified?
    Mr. Nichols. Ma'am, if there is one area where there is a 
national ability to take action, that to me is the one area 
where there is the national ability to take action and allow 
the military in some way or other to achieve and to be 
accredited according to those civilian standards or to set up 
some kind of a reciprocity piece there.
    Ms. Schakowsky. I heard the chairman talk about 
reciprocity.
    So--did you want to add to that, Colonel?
    Mr. Chlapek. Yes, ma'am. Our military relations committee 
with NAMT has recently done a gap analysis on the military 
medical training, and there is no consistency between the 
different schools. The Army doesn't train exactly what the Air 
Force trains, and they don't train what the Navy trains. So 
there is a lack of consistency with the training, and that 
leads to a problem with reciprocity. In addition----
    Ms. Schakowsky. Let me just interrupt for a second. So 
then, maybe, we can work with the military to make sure that if 
it is a couple more hours of this or something instead of that, 
that it is with an eye toward discharge and what they are going 
to do afterwards.
    Mr. Chlapek. Yes, ma'am, and we have worked with this 
reciprocity issue within the military and in the civilian 
sector for several decades now, since the EMS came about. It 
has constantly been an issue, and one thing that we are doing 
with our checklist for employers and checklist for deploying 
civilian providers is saying, get all of your training 
records--it is up to the individual soldier, sailor, airman or 
Marine when they get out to get all their training records from 
mobilization station and what they may have received overseas. 
And then they can take that to the State and say here are my 
training hours. It might not be part of your curriculum, but I 
have 3 weeks of HAZMAT training, and that goes a long way 
toward satisfying some of the requirements. Right now 
reciprocity is hit and miss.
    Ms. Schakowsky. I just want to say, I want to work with 
whoever is taking the lead. I just think this is something that 
we can figure out together and with the expertise of people 
like our witnesses.
    Mr. Pitts. The Chair thanks the gentlelady.
    I recognize the gentleman from Georgia, Dr. Gingrey, for 5 
minutes for questions.
    Mr. Gingrey. Mr. Chairman, thank you for the recognition.
    And Mrs. Capps, thank you for your comments.
    And Ms. Schakowsky, absolutely. I am one on this side 
ready, willing and able--I don't know whether I am able so much 
as ready and willing, but I want to thank Lois and Adam and 
others that, you know, have put together this piece of 
legislation because clearly it seems to me, and Congresswoman 
Schakowsky just made this comment, why in the world wouldn't 
there be consistency, at least some consistency across the 
services in regard to the 68-whiskey designation, the same that 
you would have in the Air Force and the Navy as well as in the 
Army.
    I mean, if you have got a soldier that is hit by a torpedo 
or run over by a tank or shot by a sniper, you know, you have 
got pretty much the same amount of damage and what you need to 
do to save their lives, and it seems to me that there should be 
consistency no matter what branch they happen to be in, and the 
accreditation should be granted across all service lines, 
assuming that they have developed that consistency of training.
    When doctors who are fully trained and accredited and 
licensed in whatever subspecialty and from whatever State, when 
they go down range for a couple of years, do you think that 
they don't continue to get accredited and have continuing 
education during some part of that deployment time? Of course, 
they do. They don't just--they are not out there at the tip of 
the sphere with their hand in a wound stopping blood and 
holding a lacerated artery 24/7. They clean up, dust off, go 
back and take a course periodically during their military 
training.
    I am sure the same thing exists for these EMSs, and if it 
doesn't exist, it is deplorable if they are working 24/7 and 
have no time to go in a classroom and keep their skills up and 
keep that accreditation, particularly those who come into the 
military who are already licensed as paramedics or EMTs. I 
mean, that should be a no-brainer.
    Now, I don't know whether I put that in the form of a 
question, but I would love a response from our two witnesses.
    But, you know, one thing that is missing here from this 
hearing is you all are doing a great job, but obviously, you 
both have sort of a military background bent on this in regards 
to what you think needs to be done to streamline our military 
EMTs and paramedics to get them more quickly into civilian 
workforce.
    I couldn't agree more, but I would love to hear from 
someone who maybe is kind of an expert, worked in an emergency 
room for years or run an ambulance service or whatever with 
very little, if any, military background who could bring to us 
some concerns that maybe some of these people from the military 
are bringing to the civilian side, whether it is post-traumatic 
stress syndrome or trying to resuscitate every single person 
before even giving them an opportunity to fog a mirror, you 
know. So maybe you all can comment on that a little bit as 
well.
    Mr. Nichols. Thank you, Congressman, I will grab one or two 
of them.
    The first time when I first became director of recruitment 
for Inova Health System in the area here, I did a survey of all 
the hiring managers across our facilities there, talking 
specifically about this issue of military, and it was 100 
percent--it wasn't even 90 percent that--yes, they would take 
military hands down. Obviously, they want to make sure the 
skills are there to meet the requirements for the issue of 
liability sake, but absolutely would take military hands down.
    On the other, for the other question, the first portion of 
that, there has been about $1.2 billion or so invested in the 
new training facility down in San Antonio, which is a purple 
training facility for health care technicians from the E5 and 
below level, and from what I understand, all services will be 
transitioning through there, they can hold up to 8,000 students 
a day and will transition about, train about 24,000 students 
per year through that facility. Now, will the courses be the 
same? Probably not right immediately, even among the chaplain 
corps, and we made a purple training facility for all the 
chaplains going through, we still had separate buildings for 
the Army, the Navy, and the Air Force and kind of did a little 
bit of our own thing.
    You know, as long as when you break it down to the 
competency level and you look across all the curriculum from a 
competency standpoint and find those similarities and then 
allow them to maybe add on what they might need for, say, sea 
service, I think you will find similarities. I think they are 
moving in that direction right now with the investment that you 
are seeing in the Department of Defense, but still it doesn't 
address the issue that they are not an accredited training 
facility. From the States' side that is still an issue.
    Mr. Pitts. The Chair thanks the gentleman.
    I recognize the ranking member emeritus, Mr. Dingell, 5 
minutes for questions.
    Mr. Dingell. Thank you, Mr. Chairman. I commend you for 
holding this important hearing today. As a veteran myself and 
as a student of military history, I find this piece of 
legislation to be a no-brainer. It is more than a two-fer. I 
ask unanimous consent that I can be permitted to insert into 
the record a rather excellent statement upon which I worked 
very hard.
    Mr. Pitts. Without objection, sir.
    [The prepared statement of Mr. Dingell follows:]
    [GRAPHIC] [TIFF OMITTED] T2106.015
    
    Mr. Dingell. I also want to make it very clear that when I 
came out of the Army back in 1946, I would observe that I was 
given by the school that I returned to, Georgetown, full credit 
for a lot of the things that I had learned and done in the 
military. That same thing is true about a lot of our veterans 
who are returning home, particularly in the area of medical 
care, because they are seeing things and doing things under the 
most appalling conditions, involving the most terrifying kinds 
of wounds and injuries and damages and diseases and all kinds 
of weird parasitic diseases that you get by serving in places 
like that, and they are having to learn things that people are 
desperately anxious to know about in the field of organized 
medicine, but they don't ever get exposure to these kinds of 
situations.
    So here we have got a bunch of veterans who we want to put 
back to work. We have got a problem with unemployment, which is 
a very significant problem to the veterans, homelessness and 
all the other things that attend that, but we have also got 
another little problem that I think very frankly we should take 
a hard doggone look at, and that is we are going to have a 
growing and increasing shortage of people who are qualified to 
give health care.
    Here we have people who are deserving of it by their 
service, who are skilled and have experience that is enormously 
valuable. I am satisfied that the schools and education and 
higher learning in this country are anxious to have these 
people come. I am equally satisfied that they are happy to have 
them contribute to the well-being of the schools by paying 
tuition and things of that kind. We are providing tuition for 
those people, but in addition to that, we have the opportunity 
to see to it that all of a sudden, we get an influx of valuable 
people who saw the need for this kind of service while they 
were in the military.
    So we are going to give them, we have already given them a 
lot of training, including ongoing training which they get in 
the service dealing with their particular specialties. Now I 
have talked to a lot of the people in the military who are 
doing this kind of work. It is very clear to me that they want 
to continue in this kind of area. They want to make a 
contribution. If you look, you will find a lot of the people 
who are corpsmen and other things have plans to become nurses 
or have plans to move on into being specialists in some kind of 
disease or to have a doctor's degree or something of that kind, 
and these are a tremendous resource, and I don't see how we 
could do other than to save the money that it takes to put 
those kind of people to work to see to it that they have the 
opportunity to benefit themselves and benefit the country by 
their skills that they have learned and why we can't move about 
speedily to moving this legislation forward.
    So I congratulate you for the hearing, Mr. Chairman. I urge 
my colleagues to support this legislation.
    I congratulate the authors of the legislation because it is 
going to be something that is going to be useful.
    And to our witnesses in the committee well, I do have some 
comments, I would be delighted to hear, starting with you, in 
whichever order, Mr. Chlapek or Mr. Nichols, if you have some 
comments to make, you have the remainder of my time, which is a 
minute and 19 seconds.
    Mr. Chlapek. Thank you, Congressman Dingell.
    The military can set the baseline here, much like Mr. 
Nichols talked about on the training at Fort Sam Houston in San 
Antonio, and they are going a long way toward standardizing the 
training. We just have to make sure these youngsters come out 
of the military with the license or the ability to test at that 
point.
    And you talked about the records you walked away with or 
the training and education in 1946, and I believe we could do 
the same here with that.
    Mr. Dingell. If you can't, you are wasting a lot of 
something.
    Mr. Chlapek. Say again, sir?
    Mr. Dingell. If you can't, you are going to be wasting a 
lot of talent, skills, and money.
    Mr. Chlapek. Yes, sir, agree.
    Mr. Nichols. Thank you, Congressman, thank you for your 
service to our Nation.
    Mr. Dingell. Thank you.
    Mr. Nichols. And I am sure you know probably more than most 
of us that really the foundation for the community college 
system and the workforce system of the country was based on the 
return of soldiers from World War II, and we have come a long 
way and a lot of good work that has come from there, but in 
some respects, that transition from out of the military----
    Mr. Dingell. This is so much more beneficial today and so 
much better, and they are dealing with new things that we never 
had to deal with. World War II, most of it was shrapnel or 
rifle bullets or something like that or some guy get hit by a 
tank, you know, or all kinds of things including some weird 
diseases that we got in places like Africa.
    The hard fact of the matter is now we are having to contend 
with a whole new array of diseases, damages, injuries, 
including the effects of blast, which is beginning to show up 
as having effects we never understood or never were able to 
address, and these people have got skills that I think in many 
ways exceed those which are available through the training 
programs we now have or through the organized system that we 
have delivering medicine, hospitals and things of that type. A 
lot of this stuff is brand new to American medicine and the 
medicine of the world. But you go ahead. I interrupted you, and 
you have my apologies.
    Mr. Nichols. Sir, with that, I concur.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize Mr. Kinzinger, one of the authors of the 
legislation, for 5 minutes for questions.
    Mr. Kinzinger. Thank you, Mr. Chairman, again, for holding 
the hearing and allowing me to ask some questions here.
    You know, actually as I was sitting here, this intended to 
be part of my questioning, but I am actually a major in the 
military. In the Air National Guard, I am a pilot. And the one 
thing that really hit me is when I finished pilot training in 
2004, I went to an FAA examiner, and I took a test, and I 
actually had a master question file that you study. And I went 
and I took a very quick test, and immediately my training in 
the military transferred to an instrument rating; it 
transferred to a multi-engine rating and also a rating in the 
various aircraft I flew with the military, all by taking a 
test. I didn't have to go and get retrained and get my civilian 
equivalent of an instrument rating; I got it in the military. I 
didn't have to go get my civilian equivalent of a multi-engine; 
I got it in the military.
    And so from the piloting perspective, they recognize that 
what you learn in the military should transition to the 
civilian force. In fact, we see that every day when you see 
military pilots that do their 20 years, and then they go get a 
job with United or American or one of the airlines and, if you 
are lucky, Fed Ex or UPS or something like that. So when you 
look at where the--and I don't see being a pilot as being much 
different than an EMT. You are faced with situations. You learn 
how to control a situation, how to address it, and how to move 
on. Very recently, actually within the last few years, the FAA 
also began to recognize an instructor rating in the military as 
well. So if you are an instructor pilot in the military, you 
used to have to come out and actually go through the whole 
instructor rating process civilian wise. A few years ago, they 
said, you know what, that is stupid, you are an instructor on 
the civilian side. Guess what? We have not had major 
catastrophes as a result of it. In fact, we got a whole new 
breadth of talent I think into the civilian piloting world as a 
result of that recognition.
    And I see this as not very different from that. I see this 
as the same kind of idea and I think something that can be 
learned from what has happened in the piloting community.
    But here is a question for both of you. So we talk about 
somebody coming out of the military and being able to 
transition to having their civilian EMT equivalent. What do you 
think--and maybe not an exact but kind of a general, what would 
be a basic time frame? Obviously, somebody can come in and say, 
hey, I was a civilian--or I was a military EMT in 1991. They 
probably should not be granted immediately the ability to 
transition to a civilian EMT. So there has to be some kind of a 
time limit. Maybe it is a year; maybe it is 2 years. I just 
wanted to get your general thought, we will start with you, Mr. 
Nichols, on what you think would be a good time frame between I 
came out with this military experience, and now this can 
transition to the civilian side.
    Mr. Nichols. I believe since the transition out of the 
military is typically not a surprise for individuals that they 
should start that process and be allowed to start that process 
before they get out so they don't have a gap in between the 
two. I think that really is where the issue is or at least at a 
minimum allow them to have a testing and a verification in the 
military so they know what the gap is and know what their 
requirements will be so they can properly economically plan.
    The chief difference, though, between what the FAA has and 
the health care side is the FAA has a national standard of 
skills that crosses all the States; whereas with the health 
care and the EMT, there is no national standard that is 
recognized by every State.
    Mr. Dingell. Would the gentleman yield?
    Mr. Kinzinger. Sure, sir.
    Mr. Dingell. He makes a very good point. We could 
overcomplicate what we are doing here today by drafting in all 
kinds of requirements and standards and things or we could just 
use the State and the professional accreditation agencies to do 
the work that we are talking about. They have the full ability 
to define how long it would be, what the particular skills are, 
and if we need any help when we take the next look at this, I 
think we could address all these questions.
    I do want to commend the gentleman for what he has done on 
this.
    Mr. Kinzinger. Thank you.
    Mr. Chlapek, did you have any input on that?
    Mr. Chlapek. I don't know, Congressman Kinzinger, if there 
is actually a magic number as far as 1 year, 2 years, something 
like that. A lot depends on the individual and their ability to 
retain things, but absolutely, it can't be someone from the 
Vietnam War or World War II coming back and saying, I want to 
re-license. At some point you have to go back through the 
training.
    Mr. Kinzinger. Thank you. And then just quickly, so 10 
seconds apiece basically, do most of these guys come back, men 
and women, come back with experience from their 16 weeks of 
training or is it experience that they have received on the 
job? I mean, which is the most beneficial, the formal training 
or the fact that they were in Iraq and Afghanistan fixing 
wounds et cetera?
    Mr. Chlapek. Without fail, I would say their real world 
experience when they are deployed.
    Mr. Kinzinger. Right. Which is something you can't, not to 
downtrod on civilian EMTs at all, but it is something that 
can't be replicated necessarily, you know, on the civilian side 
hopefully.
    Mr. Nichols. I absolutely agree. Employers want to hire 
experienced individuals.
    Mr. Kinzinger. With that, Mr. Chairman, I yield back, and I 
thank you for your courtesy.
    Mr. Pitts. The Chair thanks the gentleman, and that 
concludes the questioning, and the Chair looks forward to 
working with the members in a bipartisan way to address the 
issues that have been brought up today and moving legislation.
    Mr. Pallone, you have a unanimous consent request?
    Mr. Pallone. Thank you, Mr. Chairman.
    I just wanted to ask unanimous consent to enter into the 
record the statement by our ranking member, Henry Waxman.
    Mr. Pitts. Without objection, so ordered.
    [The prepared statement of Mr. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T2106.016
    
    [GRAPHIC] [TIFF OMITTED] T2106.017
    
    [GRAPHIC] [TIFF OMITTED] T2106.018
    
    [GRAPHIC] [TIFF OMITTED] T2106.019
    
    [GRAPHIC] [TIFF OMITTED] T2106.020
    
    Mr. Pitts. Excellent testimony, excellent hearing. Thank 
you. We will be in touch with you. I remind members that they 
have 10 business days to submit questions for the record.
    And I ask the witnesses to respond to the questions 
promptly.
    Members should submit their questions by close of business 
on Wednesday, July 25th.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 11:31 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
